CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner(s)
v.
Erik Sherney Williams
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. WILLIAMS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
James L. Hankins
Law Offices of James L. Hankins
2524 N. Broadway
Edmond, OK 73034
405-753-4150
jameshankins@ocdw.com
Counsel for Erik Sherney Williams

Lucas DeDeus

August 20, 2021

SCP Tracking: Cleveland-314 N.E. Twenty-First Street-Cover White

